I
I

No.
IN THE

SUPREME COURT OF THE UNITED STATES
Sedfrey M. Linsangan,
Petitioner,
vs.
Alice M. Taijeron; et al.,
Respondents.

On Petition for a Writ of Certiorari to
The United States Court of Appeals
For the Ninth Circuit

PETITION FOR A WRIT OF CERTIORARI

Sedfrey M. Linsangan
P.O. Box 23128
Barrigada, Guam 96921
Telephone: (671) 929-1616
E- Mail: guampacific@gmail.com

RECEIVED
DEC 3 0 2020

1 RECEIVED
NOV 0 9 2020

I.
1.

QUESTIONS PRESENTED

Is there anything else that I need to suffer or injure in order to qualify

for the standing issue?
2.

How could I live the quality of life that I desire if I cannot pursue my

happiness in serving the people because Guam laws substantially burdened me and
other people to run for office?
3.

Did the court misinterpret the First Amendment of the Constitution the

way it is written by creating a policy or requirement on grievances and Section 2 of
Article III Constitution?
4.

Am I not exempted for the three (3) elements of standing since Guam

laws took away some of my constitutional rights and deprived me of my rights and
privileges and therefore should not be a law?

II.
I.

Table of Contents

Questions Presented

i

II.

Table of Contents

III.

Petition for Writ of Certiorari

1

IV.

Opinions Below

1

ii

V.

Jurisdiction

VI.

List of Parties

1

VII.

Related Cases and Table of Authorities cited by Magistrate
Judge Manibusan on his Report and Recommendation.......

2

VIII.

Constitutional and Statutory Provisions

3

IX.

Other ..

7

Statement of the Case

7

XI.

Reasons for Granting the Petition

9

XU.

CONCLUSION

XIII.

Index of Appendices

X.

,1

11
1

A
B
C
D
E

ii

i

III.

Petition for Writ of Certiorari

Petioner respectfully prays that a Writ of Certiorari be issued to review the
judgment of the United States Court of Appeals for the Ninth Circuit.
IV.

Opinions Below

The opinion of the United States Court of Appeals appear$at Appendix A to
the petition.
The opinion of the United States District Court appears at appendix B to the
petition.
The Report and Recommendation of the magistrate Judge of the United States
District Court of Guam appears at Appendix C to the petition.
V.

Jurisdiction

The date on which the United States Court of Appeals decided my case was
on August 24, 2020. A timely petition for rehearing en banc was denied by the
United States Court of appeals on September 29, 2020 and a copy of the Order
Denying Rehearing en banc appears at Appendix D. The jurisdiction of this court is
invoked under 28 US. C. Section 1254 (1).
VI.

List of Parties

All parties do not appear in the caption of the case on the cover page. A list
of all parties to the proceeding in the court whose judgement is the subject of this

1

petition is as follows:
Alice M. Taijeron
2.

Jadeen Tuncap

3.

G. Patrick Civille

4.

Joseph P. Mafnas

5.

Joaquin P. Perez

6.

Michael J. Perez

7.

Benny Pinaula

VII- Related Cases and Table of Authorities cited by
Magistrate Judge Manibusan
1. Maya v. Center Corp., 658 F.3d 1060, 1068 (9th Circuit 2011) (quoting
Warth v. Seldin, 422 U.S. 490, 501 (1975) “When determining Article III standing
the court must accept as true and all material allegations of the complaint and
construe the complaint in favor the of the complaining party. Decreased quality of
Life is an injury in fact sufficient to support standing.
2.

Somers v. Apple, Inc., 729 F3d. 953, 959 (9th Cir. 2013) “A defendant

is entitled to dismissal under Rule 12 (b) (6) when a complaint fails to state a
cognizable legal theory or alleges insufficient facts under a cognizable legal theory.

2

3.

N. Star Int’l v. Ariz. Corp., Comm’n 720 F.2d 578, 571 (9th Cir. 1963)

“The Ninth Circuit has explained that the purpose of a Rule 12 (b) 96) motion is to
test a complaints legal sufficiency.
4.

Federal Rules of Civil Procedure, Rule 8(a) “Generally, the plaintiffs

burden at this state is light since Rule 8(a) requires only that a complaint shall contain
... a short and plain statement of the claim showing the pleader is entitled to relief.
5.

Sprewell v. Golden State Warriers, 266 F.3d 979, 988 (9th Cir. 2001)

“All allegation of material fact are taken as true and construed in the light most
favorable to the non moving party”
6.

Bretz v. Kelman, 773 F.2d 1026, 1027 n.l. (9th Cir. 1985); See also,

Butler v. Long, 752 F. 3d 1177, 1180 (9th Cir. 2014) “The Court has an obligation,
especially in civil rights actions to construe pro se pleading liberally and gives the
pro se plaintiff the benefit of any doubt.
7.

Supplemental Authorities and established cases cited in Report and

Recommendation (Appendix C)
VIII. Constitutional and Statutory Provisions Involved
1.

First Amendment
The right of the people to petition the government for a redPess of

grievances.

3

2.

Ninth Amendment
The enumeration in the constitution of certain rights shall not be

construed to deny or disparage others retained by the people.
3.

Fourteenth Amendment, pf f+h /A >v\ e

tvi

’t

No state shall make or enforce any law which abridge the privileges or
immunities of citizens of the United States; nor shall any state deprive any person of
life, liberty, or property without due process of law; nor deny to any person within
its jurisdiction the equal protection of law.
4.

Fifteenth Amendment
The rights of citizens of the United States to vote shall not be denied or

abridged by the United States or by any state on account of race, color, or previous
condition of servitude.
5.

Section 1983 of Title 42 USC.
Every person who, under color of any statute, ordinance, regulation,

custom, or usage, of any State or Territory or the District of Columbia, subjects, or
causes to be subjected, any citizen of the United States or other person within the
jurisdiction thereof to the deprivation of any rights, privileges, or immunities secured
by the Constitution and laws, shall be liable to the party injured in an action at law,
suit in equity, or other proper proceeding for redress, except that in any action
brought against a judicial officer for an act or omission taken in such officer’s
4

judicial capacity, injunctive relief shall not be granted unless a declaratory decree
was violated or declaratory relief was unavailable.
6.

Subsection (a) of Section 15404 of Chapter 15 of 3 GCA. Conduct of

Primary Elections.
(a)

I Maga ‘lahen Guahan and Segundu Na Maga ‘lahi team

receiving a plurality of votes cast for a partisan nomination shall be the party
nominees for the general election. No I Maga ‘lahen Guahan and Segundu Na Maga
lahi team running in the independent column shall be eligible for general election
ballot placement unless such team receives a minimum twenty percent (20%) of the
total combined votes cast for the winning teams seeking partisan nomination.
7.

Section 1422 of Title 48 Organic Act of Guam
“The Governor of Guam together with the Lt. Governor, shall be

elected by a majority of the votes cast by the people who are qualified to vote for the
members of the Legislature of Guam”. The Governor and lt. governor shall be
chosen jointly, by the casting by each voter of a single vote applicable to both offices.
8.

Section 1421b(n) Bill of Rights of Title 48 Organic Act of Guam
“No discrimination shall be made in Guam against any person or

account of race, language, or religion, nor shall the equal protection of the laws be
denied”.

5

9.

Section 1421b. Bill of Rights (a) Title 48 USC Organic Act of Guam.

Right of the people to petition the government for a redress of their grievances”.
10.

Section 1421b. (e) Bill of Rights Title 48 USC Organic Act of Guam

“No person shall be deprived of life, liberty, or property without due process of law”
11.

Section 1423a. Scope of Legislative Authority. “The legislative power

of Guam shall extend to all rightful subjects of legislation not in consistent with the
provisions of this chapter and the laws of the United States applicable to Guam.
12.

Section 1421b: (u) of Title 48 Organic Act of Guam. The following

provisions of and amendments to the Constitution of the United States are hereby
extended to Guam to the extent that they have not been preciously extended to that
Territory and shall have the same force and effect there as in the United States or in
any State of the United States article I, section 9, clauses 2 and 3; article IV, section
1 and section 2, clause 1; the first to ninth amendments inclusive; the thirteenth
amendment; the second sentence of section 1 of the fourteenth amendment; and the
fifteenth and nineteenth amendments.
All laws enacted by Congress with respect to Guam and all laws enacted by
the territorial legislature of Guam which are inconsistent with the provisions of this
subsection are repealed to the extent of such inconsistency.

/4«ny
/*%

&~f pe’hi,'ior'.

Uri

(C’i’&rf ftqty

IX.

Other

Amended Complaint filed on June 21,2018. (Appendix E)
I am very respectfully requesting that the court to please review the transcript
of records on oral arguments dated January 9, 2020 because it will justify my case
on all issues. The 40 pages limit prevented me to include the transcript of records.
X.

Statement of the Case

In May 2017,1 attended the Guam Election meeting . I informed them that I
want to run for Governor but finding a running mate in the primary election and
excessive nominating petition is but denying me substantially to run for Governor.
I also complained about the unequal treatment on nominating petition because other
positions does not require one. I also raised the issue that mayoral candidate does
not require a running mate in Primary election.
I explained to them that in the United States, it is not mandatory to run for
governor with a Lt. Governor team in the primary election. Even in Presidential
election, running mate is not needed in the primary election.
The Legal counsel advised me to see U.S. Congress regarding my grievances.
I exhausted all avenues by seeing the Legislature five (5) times and Speaker of the
Legislature to repeal the law that requires running mate but all in vain.
I have no resort but to file a lawsuit and represent myself since five (5) lawyers
that I talked to will not take the case.

The case was filed on November 30, 2017 against the Guam Election
Commission pursuant to Section 1983, Title 42 U.S.C. Motion to Dismiss was filed
on December 21,2017. On June 18, the Chief Judge granted the Motion to Dismiss
but permitted me to file an amended complaint to name the appropriate section 1983
parties and allege facts that establish my claims are ripe upon the Report and
Recommendation of the Magistrate Judge. Chief judge adopted in full the Report
and Recommendation of the Magistrate Judge.
I filed an Amended Complaint to satisfy all the issues of the Chief Judge and
Magistrate Judge on June 21, 2018.
Petitioner is a U.S. citizen, a U.S. Veteran and classified as Serviced Disabled
Veteran, Small Business Owned. Primary and General Election are financed by
taxpayers of Guam not by Republican and Democratic Parties. I have standing
because I am a taxpayer that financed the Guam election. I have standing because
Guam law substantially burdened me to run for Governor. I have standing because
I cannot vote for my preferred Lt. Governor candidate in the primary election. I
have standing even I do not run for office because of First Amendment and Bill of
Rights of the people to petition the government for a redress of grievances. The
grievances is not defined as particularized or concrete. But I suffered particularized
and concrete injuries and my other grievances falls under general grievances. I have
standing because the Guam law ran a foul or in contravention of my constitutional
8

rights, federal laws and Bill of Rights. It adversely affects the quality of life and
happiness that I would like to pursue. It took the court two (2) years and two (2)
months to decide on my case for lack of standing. My intention to run is dignified
since I went to the proper channels to raised my concerns.

I also moved for

Preliminary Injunction so that I can run in the primary election. Petitioner is a former
elected Guam Education Policy Board Member and passionate to serve the people
of Guam, in a larger capacity as Governor. I believe Guam laws constitute invidious
discrimination that provokes resentment and envy and should not be a law.
The Commissioners are acting under the color of Guam law Section 15404 of
3 GCA that deprives me of my rights, privileges secured by the Constitution and
laws of the United States of America. Their actions in implementing the Guam law
X-—’

injured me to run for. office. If the court will rule in my favor, thetfl can run for
Governor in the primary election. Allthe candidates except one had hard time finding
a running mate. Some end up teaming with candidates that lost in the Senatorial
election. They cannot find a running mate that is incumbent or running mate that
they desired because those will not run with them. But that should not be case, they
have no choice but to get anybody so they can run for Governor. In 1990’s, Jeff
Pleadwell had to come up with his wife as running mate so he can run for Governor.
XI.

Reasons for Granting the Petition

9

This case is not only about me, but to others that are similarly situated. It
constitutes a national importance because it will establish a bad precedent that will
discourage people and pro se filers to petition the government for redress of
grievances
or file a lawsuit against the government.
The First Amendment and the rest of the constitution should be interpreted
the way it is written. The Court should not make policy and amendment to the
constitution because it would suppress the people’s rights.
If the petition for Writ is not granted, it will not restore the rule of law and
will not preserve the constitutional democracy. The right of the people to petition
the government of their grievances will not exercised by many.
Public officials such as Governor position manages the taxpayers and federal
funds.
That is why it is imperative that there should be no law that substantially deny,
burden, invidiously discriminate, and deprive citizens privileges to run for office.
The United States Court of Appeals has entered a decision in conflict with the
decisions of the same Appeals Court and another U.S. State Court of Appeals on Pro
Se filers.
The right to petition was shortchanged by limiting the grievances of the
citizens to particularized and concrete grievance or injury. This is contrary to the
10

First Amendment language that should cover all types of grievances and
fundamental principle of the constitution of Life, Liberty and Pursuit of Happiness.
The Constitution and law should not be restricted but expanded to carry out
the Principle and Preamble of the Constitution.
XII. Conclusion
For the foregoing reasons, I am very respectfully requesting that this Court
issue a Writ of Certiorari to review the judgment of U.S. Court of Appeals for the
Ninth Circuit.

Dated this 2,^ day of October, 2020,

Respectfully submitted,

Sedffey M. Linsangan
Pro Se, Petitioner
P.O. Box 23128
Barrigada, Guam 96921
Telephone: (671)929-1616
E-Mail: guampacific@,gmail.com

11

